    COMPILING AND REPORTING FY 2000 NAVY WORKING
   CAPITAL FUND INTRAGOVERNMENTAL TRANSACTIONS


Report No. D-2001-139                          June 18, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CDB                   Central Data Base
DFAS                  Defense Finance and Accounting Service
JV                    Journal Voucher
SSR                   Summary Source of Revenue
                       Office of the Inspector General, DoD
Report No. D-2001-139                                                    June 18, 2001
  (Project No. D2000FC-0279.002)

             Compiling and Reporting FY 2000 Navy Working
              Capital Fund Intragovernmental Transactions

                                   Executive Summary

Introduction. We conducted this audit in support of our annual audit of the DoD
Agency-Wide financial statements for FY 2000, as required by the Chief Financial
Officers Act of 1990, as amended by the Federal Financial Management Act of 1994.
This report is the fourth report in a series on the FY 2000 Navy Working Capital Fund
Financial Statements. The previous reports discussed inventory valuation, problems
with a financial feeder system, and endorsed the Naval Audit Service disclaimer of
opinion on the financial statements. The FY 2000 Navy Working Capital Fund
Financial Statements reported $25.1 billion in assets, $6 billion in liabilities,
$19.1 billion in net position, and $18.3 billion in intragovernmental transactions.
Intragovernmental transactions are transactions that occur within and among general
fund and working capital fund organizations, DoD, and the Federal Government.
These intragovernmental transactions should be identified and eliminated, as
appropriate, when an entity prepares consolidated financial statements.

Objectives. The audit objective was to determine the reliability and effectiveness of
the processes and procedures used to compile and prepare intragovernmental
transactions for the FY 2000 Navy Working Capital Fund Financial Statements. We
also reviewed the Defense Finance and Accounting Service (DFAS) Cleveland
management control program as it related to the audit objective.

Results. The Navy and DFAS identified $18.3 billion in intragovernmental
transactions, which included $4.7 billion that was eliminated from the FY 2000 Navy
Working Capital Fund Financial Statements. DFAS Cleveland also published a
standard operating procedure providing guidance on how to gather, process, and report
intragovernmental transactions. However, additional improvements were necessary.

Review of 151 of the 173 department-level journal vouchers to record and adjust
financial data related to FY 2000 intragovernmental transactions for the Navy Working
Capital Fund showed that 95 journal vouchers, valued at $28.8 billion, were not
adequately supported because DFAS forced buyer-side data to agree with seller-side
data without reconciling the differences, as directed by the Under Secretary of Defense
(Comptroller). Also, DFAS Cleveland did not disclose in a note to the financial
statements that accounts receivable and revenue were increased by $295 million each to
remove abnormal balances caused by adjustments for undistributed collections. As a
result, the financial statements were not reliable. Until accounting systems can capture
trading partner data and reconciliations between buyers and sellers can be performed,
financial statements will continue to be unreliable (finding A).

Intragovernmental eliminations in the FY 2000 Navy Working Capital Fund Financial
Statements were overstated by $1.8 billion plus a potential additional amount up to
$2.2 billion. Also, the financial statements did not disclose that complete information
relating to intragovernmental transactions had not been received and that
intragovernmental transactions submitted by Norfolk Naval Shipyard were not accurate.
DFAS Cleveland did not receive seller-side information from 11 of 46 Navy Working
Capital Fund field organizations required to provide seller-side information, and DFAS
Cleveland incorrectly compiled and allocated seller-side information, which resulted in
the overstatement of intragovernmental eliminations. As a result, the FY 2000 Navy
Working Capital Fund Financial Statements were materially misstated and could not be
relied on as a complete and accurate presentation of financial reporting (finding B).
See Appendix A for a discussion of the review of the management control program.

Summary of Recommendations. We recommend that the Director, DFAS Cleveland,
disclose adjustments to accounts receivable and revenue for unreconciled amounts of
undistributed collections and any departures from reporting requirements, and improve
management controls to review and edit all information received to ensure that
information received is properly recorded, reviewed, and accounted for. We also
recommend that the Assistant Secretary of the Navy (Financial Management and
Comptroller) require Navy Working Capital Fund Industrial Fund organizations to
provide DFAS Cleveland with complete and accurate seller-side information as required
by the DoD Financial Management Regulation.

Management Comments. DFAS concurred with all recommendations and agreed to
make appropriate disclosures in the notes to the financial statements for adjustments to
remove abnormal balances caused by posting undistributed collections to accounts
receivable and disclose methods used to allocate seller-side balances for organizations
that do not submit required information. DFAS also will improve procedures and
controls to ensure information from Navy Working Capital Fund field organizations is
properly recorded, reviewed, and accounted for. The Navy did not respond to the draft
of this report. Therefore, we request the Navy provide comments on the final report by
July 18, 2001. See the Management Comments section of the report for the complete
text of the comments.




                                           ii
Table of Contents

Executive Summary                                              i


Introduction
     Background                                                1
     Objectives                                                2

Findings
     A. Journal Vouchers for Intragovernmental Transactions   3
     B. Eliminations for Intragovernmental Transactions       6

Appendixes
     A. Audit Process
         Scope                                                12
         Methodology                                          13
         Management Control Program Review                    13
         Prior Coverage                                       14
     B. Report Distribution                                   15

Management Comments
     Defense Finance and Accounting Service                   17
Background
    Public Law 101-576, the “Chief Financial Officers Act of 1990,” November 15,
    1990, as amended by Public Law 103-356, the “Federal Financial Management
    Act of 1994,” October 13, 1994, requires DoD to submit to the Office of
    Management and Budget annual financial statements that have been audited by
    the Inspector General, DoD. This report is the fourth in a series of reports
    related to the FY 2000 Navy Working Capital Fund Financial Statements. The
    previous reports discussed inventory valuation, problems with a financial feeder
    system, and endorsed the Naval Audit Service disclaimer of opinion on the
    FY 2000 Navy Working Capital Fund Financial Statements. This report
    discusses the reliability and effectiveness of the policies and procedures used to
    report intragovernmental transaction information for FY 2000 Navy Working
    Capital Fund Financial Statements.

    Navy Working Capital Fund. The Navy Working Capital Fund finances six
    primary activity groups that provide support to the Navy and other authorized
    customers: Depot Maintenance, Transportation, Base Support, Information
    Services, Research and Development, and Supply Management. All of the
    primary activity groups except Supply Management are often referred to as the
    Industrial Fund business area. The Industrial Fund business area had 46 field
    organizations. The FY 2000 Navy Working Capital Fund Financial Statements
    reported $25.1 billion in assets, $6 billion in liabilities, and a net position of
    $19.1 billion.

    Accounting Functions and Responsibilities. The Defense Finance and
    Accounting Service (DFAS) Cleveland provides finance and accounting
    assistance to the Navy Working Capital Fund. Each month, DFAS Cleveland
    receives financial information in various forms from Navy Working Capital
    Fund field organizations and records the data into the Central Data Base (CDB)
    accounting system. DFAS Cleveland consolidates the financial data and
    prepares both the monthly reports and annual financial statements for the Navy
    Working Capital Fund. The CDB is primarily used for the compilation of data
    in summarized form received from various feeder systems. The feeder systems
    provide detailed transactions supporting trading partner information needed to
    report and eliminate the effects of intragovernmental transactions.

    Transactions Requiring Elimination. Intragovernmental transactions are
    transactions that occur within and among DoD Components and agencies, and
    the Federal Government. When an entity prepares consolidated financial
    statements, it should remove the effect of financial transactions among its
    components and should report only transactions with outside parties. Navy
    Working Capital Fund organizations are routinely involved in transactions
    involving sales and purchases of materials and services with other Navy General
    Fund and Working Capital Fund organizations, DoD Components, and other
    Federal agencies. When those kinds of transactions occur, the transactions are
    to be disclosed, and when appropriate, eliminated from the various levels of



                                         1
     financial statements. With regard to sales of goods or services between Federal
     entities, there are three levels of intragovernmental transactions, which must be
     identified.

             •   Level 1: Transactions involving sales between DoD and other
                 Federal agencies, such as between the Navy and the Department of
                 Commerce.

             •   Level 2: Transactions involving sales between DoD reporting
                 entities, such as between the Navy Working Capital Fund and the
                 Navy General Fund.

             •   Level 3: Transactions involving sales between components of the
                 DoD financial reporting entity, such as between the Navy Working
                 Capital Fund Supply Management activity group and the Navy
                 Working Capital Fund Depot Maintenance activity group.

     The Navy Working Capital Fund is required to identify and report
     intragovernmental transactions for all levels. However, only intragovernmental
     transactions for level 3 are eliminated from the Navy Working Capital Fund
     financial statements. DFAS Cleveland identified and reported $18.3 billion in
     intragovernmental transactions for levels 1, 2, and 3 for FY 2000. Of the
     $18.3 billion, DFAS Cleveland eliminated $4.7 billion in intragovernmental
     transactions related to level 3 from the FY 2000 Navy Working Capital Fund
     Financial Statements.

Objectives
     The audit objective was to determine the reliability and effectiveness of the
     processes and procedures used to compile and prepare intragovernmental
     transactions for the FY 2000 Navy Working Capital Fund Financial Statements.
     We also reviewed the DFAS Cleveland management control program as it
     related to the audit objective. Appendix A discusses the audit scope and
     methodology and our review of the management control program.




                                         2
           A. Journal Vouchers for
              Intragovernmental Transactions
           Review of the 151 journal vouchers (JVs) prepared by DFAS Cleveland
           showed that 95 JVs, valued at $28.8 billion, were not adequately
           supported. In addition, DFAS Cleveland did not disclose in a note to the
           financial statements that accounts receivable and revenue were increased
           by $295 million each so that abnormal balances caused by posting
           undistributed collections to accounts receivable would be removed. The
           JVs were prepared primarily because of the limitations of the accounting
           systems that do not capture trading partner information at the transaction
           level. DoD Regulation 7000.14-R directs DFAS Cleveland to force
           buyer-side data to agree with the seller-side data. Also, DFAS guidance
           did not require DFAS Cleveland to disclose the adjustment for negative
           accounts receivable. As a result, the financial statements could not be
           relied on. Until accounting systems can capture trading partner data, and
           reconciliations between buyers’ and sellers’ records can be performed,
           financial statements will continue to be unreliable.

Guidance for Reporting Intragovernmental Transactions
    DoD Guidance. DoD Regulation 7000.14-R, “Financial Management
    Regulation,” volume 6B, “Form and Content of the Department of Defense
    Audited Financial Statements,” chapter 13, “Fiscal Year 2000 Adjustments,
    Eliminations, and Other Special Intragovernmental Reconciliation Procedures,”
    October 2000, provides specific guidance and procedures for reporting and
    eliminating intragovernmental transactions. DoD Regulation 7000.14-R further
    states that DoD accounting systems do not capture trading partner information at
    the transaction level because DoD accounting systems were designed and
    implemented before the requirement to eliminate intragovernmental transactions
    was established. Therefore, the systems cannot produce the data necessary for
    reconciliations between buyers and sellers. DoD Regulation 7000.14-R also
    states that the amounts of intragovernmental accounts receivable, revenue, and
    advances from others (unearned revenue) reported by the seller are presumed to
    be more accurate. Therefore, corresponding amounts reported by the buyers for
    accounts payable, expenses, and advances must be adjusted to match the sellers’
    records.

    DFAS Guidance. To avoid reporting negative accounts payable and accounts
    receivable prior to financial report preparation, DFAS issued interim guidance
    on March 1, 2001. This guidance allows the reporting activities to increase
    accounts payable and receivable to cover the negative amounts if the offset of
    undistributed disbursements or collections results in a negative amount. The
    interim guidance did not require the reporting activities to reconcile the
    differences nor to disclose the undistributed amounts applied to the financial
    statement line items. The interim guidance had not been approved by the Under
    Secretary of Defense (Comptroller) at the time of our review.



                                       3
JVs Related to Intragovernmental Transactions
           DFAS Cleveland and Kansas City prepared and posted 173 JVs, valued at
           $37.5 billion, to the Defense Departmental Reporting System.1 DFAS
           Cleveland prepared 151 JVs, valued at $37 billion, and DFAS Kansas City
           prepared 22 JVs, valued at $.5 billion. Review of the 151 JVs prepared by
           DFAS Cleveland showed that 56 JVs, valued at $8.2 billion, were adequately
           supported. The remaining 95 JVs, valued at $28.8 billion, were not supported
           because they were made to arbitrarily adjust accounts receivable, revenue, and
           unearned revenue to agree with the seller-side information, to adjust negative
           accounts receivable, or to reclassify the buyer-side data from Government to
           public.

           Adjustments to Match Seller-Side Information. Because of the lack of
           reliable accounting systems, DFAS Cleveland could not use the information in
           the department-level general ledger accounts as a source for accumulating and
           reporting intragovernmental transactions. Instead, DFAS Cleveland used the
           seller information as a basis for reporting intragovernmental transactions.
           However, using the sellers’ information to report intragovernmental transactions
           resulted in a series of adjustments because the amounts recorded for accounts
           receivable, revenue, and unearned revenue differed from the amounts recorded
           in the department-level general ledger accounts. For FY 2000, DFAS
           Cleveland posted 92 JVs, valued at $28.2 billion, to force buyer-side data to
           agree with seller-side data or to reclassify the buyer-side data from Government
           to public. In preparing those JVs, DFAS Cleveland followed guidance in DoD
           Regulation 7000.14-R, which requires the buyer-side information be adjusted to
           match the seller-side information. DoD Regulation 7000.14-R further states that
           reconciliation between buyers and sellers records cannot be performed because
           existing DoD accounting systems cannot produce the data necessary for such
           reconciliations.

           Increasing Accounts Receivable and Revenue. DFAS Cleveland increased
           accounts receivable and revenue by $295 million each without adequately
           explaining the increased amount in the note to the financial statements. DoD
           Regulation 7000.14-R, volume 6B, states that where data used are known to be
           incomplete, deemed to be unreliable, or are estimated amounts, the note
           pertaining to the line(s) where such data are reported in the statement shall
           contain a reference to such data. DFAS Cleveland recorded three JVs that
           increased accounts receivable by $295 million and revenue by $295 million,
           without reconciling between the undistributed collections and the accounts
           receivable. These JVs were recorded to remove negative account balances
           resulting from posting undistributed collections to accounts receivable. In
           preparing the three JVs, DFAS Cleveland followed DFAS interim guidance on
           adjustments for negative accounts payable and accounts receivable, which
           directs DFAS Cleveland to make such adjustments if posting undistributed
           collections to accounts receivable creates a negative accounts receivable. This

1
    The Defense Departmental Reporting System is a software application created during FY 2000 that was
    used to document ending trial balances from other accounting systems and adjustments necessary to
    produce a final trial balance and prepare the annual financial statements.

                                                     4
    interim guidance was endorsed by the DFAS Director for Accounting on
    March 1, 2001, and submitted to the Under Secretary of Defense (Comptroller)
    for final approval. The interim guidance for handling negative accounts payable
    and accounts receivable had not been approved by the Under Secretary of
    Defense (Comptroller) at the time of our review. Accounts receivable should
    not be artificially increased unless there is a reconciliation between the
    undistributed collections and the accounts receivable. Accordingly, this
    departure from generally accepted accounting principles should be clearly
    disclosed in the notes to the financial statements.

Conclusion
    We are not making a recommendation to correct the deficiencies related to
    accounting systems and the lack of reconciliation between buyers’ and sellers’
    records because these deficiencies have been discussed in Inspector General,
    DoD, Report No. D-2000-144, “Compiling and Reporting FY 1999 Navy
    Working Capital Fund Intragovernmental Transactions,” June 9, 2000, and
    Inspector General, DoD, Report No. D-2001-042, “Accounting and Disclosing
    Intragovernmental Transactions on the DoD Agency–Wide Financial
    Statements,” January 31, 2001. The Under Secretary of Defense (Comptroller)
    concurred in principle with our recommendations to reconcile buyer and seller
    side information. However, because DoD accounting systems were not
    designed to capture such data, the Under Secretary of Defense (Comptroller)
    chose not to require such reconciliations. Both the FY 2000 Navy Working
    Capital Fund and FY 2000 DoD-Wide Financial Statements included a note to
    the financial statements disclosing that DoD was not able to reconcile
    intragovernmental transactions amounts with its trading partners, and buyer-side
    data were adjusted to equal with seller-side data. However, the inability of DoD
    to properly reconcile and report trading partner eliminations is a material
    weakness that may prevent the Navy Working Capital Fund financial statements
    and DoD-Wide financial statements from obtaining a favorable audit opinion.


Recommendation and Management Comments
    A. We recommend that the Director, Defense Finance and Accounting
    Service, Cleveland, disclose in the notes to the financial statements journal
    voucher adjustments to accounts receivable and revenue made to remove
    abnormal account balances caused by posting undistributed collections to
    accounts receivable.

    Management Comments. DFAS concurred and will disclose in a footnote to
    the financial statements the adjustments to accounts receivable and revenue to
    remove abnormal account balances caused by posting undistributed collections
    to accounts receivable.




                                        5
          B. Eliminations for Intragovernmental
             Transactions
          Intragovernmental transactions shown as eliminated in the FY 2000 Navy
          Working Capital Fund Financial Statements were overstated by
          $1.8 billion plus a potential additional amount up to $2.2 billion. Also,
          DFAS Cleveland did not disclose its methodology for allocating
          intragovernmental transactions, and information submitted by one of the
          eight Navy field organizations reviewed was not accurate. These
          conditions occurred because of the following reasons.

               • Eleven of the 46 Navy Working Capital Fund Industrial Fund
                 organizations did not provide DFAS Cleveland with the seller-side
                 information as required by DoD Regulation 7000.14-R.
                 Accordingly, DFAS Cleveland extracted the seller-side
                 information, valued at $2.2 billion, for the 11 organizations from
                 its general ledger and considered the entire amount as
                 level 3 eliminations (transactions between different Navy Working
                 Capital Fund organizations). (The 35 organizations that provided
                 seller-side information showed that 91 percent of the
                 intragovernmental transactions were with level 1 or 2
                 organizations--transactions with other DoD or Federal entities.)

               • DFAS Cleveland erroneously omitted revenue-related
                 transactions valued at $2.1 billion when entering seller-side
                 information for the 35 Navy Working Capital Fund organizations
                 that provide the required seller-side information, because of
                 inadequate controls over reviewing and posting of information
                 received. DFAS Cleveland considered the entire $2.1 billion as a
                 level 3 elimination. However, the 35 organizations reported that
                 $1.8 billion were levels 1 and 2 intragovernmental transactions.

               • Norfolk Naval Shipyard had not established controls to ensure the
                 accuracy of intragovernmental transactions reported, and
                 supporting records showed $39 million more than what was
                 reported.

               • DFAS Cleveland did not follow guidance in DoD Regulation
                 7000.14-R, which requires that estimates reported in the financial
                 statements be disclosed.

          As a result, the FY 2000 financial statements for the Navy Working
          Capital Fund were materially misstated and could not be relied on to be a
          complete and accurate presentation of financial reporting.

Guidance for Eliminating Intragovernmental Transactions
    Office of Management and Budget Guidance and Treasury Guidance.
    Office of Management and Budget Bulletin No. 97-01, “Form and Content of
    Agency Financial Statements,” October 16, 1996, as amended January 7, 2000,
                                      6
      requires agencies to show intra-entity eliminations for FY 2000. In
      September 2000, the Department of the Treasury issued a “Federal
      Intragovernmental Transactions Accounting Policies and Procedures Guide,”
      which states that agencies should identify the differences, locate the information
      necessary to determine the causes of the differences, and quantify the amounts
      of the differences. Also, the agencies should prepare and record adjusting
      entries and document that adjusted accounts are reconciled.

      DoD Guidance. In October 2000, the Under Secretary of Defense
      (Comptroller) issued guidance on intragovernmental eliminations and
      reconciliation procedures and incorporated the guidance into DoD
      Regulation 7000.14-R, “Financial Management Regulation,” volume 6B,
      chapter 13. This guidance provides instructions to prepare and present
      worksheets in support of trading partner exchange of data and to adjust buyer-
      side information to agree with seller-side information. Also, the guidance
      provides instruction on how to compute intragovernmental transactions for
      levels 1, 2, and 3.

      Standard Operating Procedures. In response to the recommendation in
      Inspector General, DoD, Report No. D-2000-144, DFAS Cleveland issued a
      standard operating procedure related to intragovernmental transactions. The
      standard operating procedure provides desktop procedures on how the
      elimination data are gathered and validated for FY 2000 Navy Working Capital
      Fund Financial Statements. The standard operating procedure also provides
      specific processes DFAS Cleveland should follow for analyzing and reviewing
      intragovernmental transactions.

Reporting Intragovernmental Transactions
      During FY 2000, DFAS Cleveland identified and reported $18.3 billion in
      intragovernmental transactions for levels 1, 2, and 3 in the FY 2000 Navy
      Working Capital Fund Financial Statements.

      The following table shows the amounts of accounts receivable, revenue, and
      unearned revenue reported as intragovernmental transactions and eliminations
      for levels 1, 2, and 3 for FY 2000.

                         Summary of Seller Data Used for
                         Intragovernmental Transactions
                                  (in thousands)

Elimination      Accounts                             Unearned
Level            Receivable            Revenue        Revenue                 Total

Level 1          $ 66,287          $   389,965        $ 21,370          $    477,622
Level 2            517,138          12,563,791          24,730           13,105,659
Level 3            301,386           4,374,664          10,054             4,686,104
  Total          $ 884,811         $17,328,420        $ 56,154          $ 18,269,385




                                           7
           Of the $18.3 billion, DFAS Cleveland eliminated $4.7 billion in
           intragovernmental transactions related to level 3 from the FY 2000 Navy
           Working Capital Fund Financial Statements. However, the process DFAS
           Cleveland used to eliminate the $4.7 billion in intragovernmental transactions in
           the FY 2000 Navy Working Capital Fund Financial Statements did not
           accurately identify and eliminate the effects of all intragovernmental transactions
           that occurred within and among Navy Working Capital Fund organizations,
           DoD, and other Federal agencies. DFAS Cleveland overstated level 3
           eliminations by $1.8 billion plus an undetermined amount up to $2.2 billion.

Seller-Side Information From Field Organizations
           DFAS Cleveland overstated level 3 eliminations by an undetermined amount up
           to $2.2 billion because 11 of the 46 Navy Working Capital Fund Industrial Fund
           organizations that DFAS Cleveland requested to provide seller-side information
           for their trading partners did not provide the required information. Therefore,
           DFAS Cleveland decided to allocate the whole amount of intragovernmental
           transactions for these 11 organizations transactions to level 3 for elimination in
           the Navy Working Capital Fund financial statements. Also, seller-side
           information received from the field organizations was not always accurate.

           Requesting Seller-Side Information. DoD Regulation 7000.14-R, volume 6B,
           requires DoD accounting centers and DoD Components to work internally, and
           with their customers, to extract seller-side information from their
           intragovernmental (DoD and Federal) trading partners. To comply with this
           requirement, DFAS Cleveland requested Navy organizations to modify their
           Summary Source of Revenue2 (SSR) to include accounts receivable, revenue,
           and unearned revenue for all levels because the general ledger used for
           departmental accounting at DFAS Cleveland (the CDB), and the organizations’
           monthly general ledgers did not contain such detailed information.

           For FY 2000, DFAS Cleveland sent a data call to 46 Navy Working Capital
           Fund Industrial Fund organizations to obtain the seller-side balances. Of the
           46 organizations, 35 provided SSRs with detailed information on
           intragovernmental transaction balances for levels 1, 2, and 3 eliminations for
           accounts receivable, revenue, and unearned revenue amounts. The remaining
           11 organizations did not provide DFAS Cleveland with the requested
           information and stated that their accounting systems were not capable of
           complying with the DFAS Cleveland request. We did not determine the
           capabilities of those 11 organizations. However, review of the FY 1999
           intragovernmental transactions showed that the 11 Navy Working Capital Fund
           organizations did submit revenue information to DFAS Cleveland for FY 1999.

           Allocation of Intragovernmental Transactions for Organizations Not
           Submitting Information. To compensate for the missing information,
           DFAS Cleveland used the financial information contained in the CDB to extract

2
    Summary Source of Revenue is the report generated by the Navy Industrial Fund organizations or by the
    DFAS operating locations. This report contains seller-side information for accounts receivable,
    revenue, and unearned revenue for levels 1, 2, and 3.

                                                     8
    intragovernmental transactions for the 11 Navy Working Capital Fund
    organizations. The CDB data showed intragovernmental transactions relating to
    accounts receivable, revenue, and unearned revenue of $142 million,
    $2.1 billion, and $8 million, respectively, for the 11 Navy Working Capital
    Fund organizations. Because the balances contained in the CDB did not include
    detailed information for levels 1, 2, and 3 eliminations, or Federal and
    non-Federal, DFAS Cleveland allocated the entire $2.2 billion to level 3. This
    procedure resulted in overstating the eliminations for accounts receivable,
    revenue, and unearned revenue for level 3. Because trading partner information
    was not reported for 11 Navy Working Capital Fund organizations, the amount
    that should have been allocated to level 3 was not available. However, based on
    the breakout of transactions for the 35 organizations that did submit trading
    partner information, 91 percent was allocated to levels 1 and 2.

    Accuracy of Information Received. The seller-side information provided by
    one of the Navy Working Capital Fund organizations reviewed contained errors.
    DoD Regulation 7000.14-R, volume 6A, “Reporting Policy and Procedures,”
    chapter 2, December 2000, states that DoD Components shall establish
    appropriate internal controls to ensure that the data provided to DFAS are
    accurate, complete, and supportable. A judgmental sample of eight Navy
    Working Capital Fund organizations with the intragovernmental transactions of
    $2.3 billion showed that seven of the eight Navy Working Capital Fund
    organizations had adequate support for the amount reported to DFAS Cleveland.
    However, one Navy Working Capital Fund organization–Norfolk Naval
    Shipyard–reported $861 million to DFAS Cleveland although its records showed
    $900 million or $39 million more than the reported amount. We discussed this
    discrepancy with Norfolk Naval Shipyard accounting personnel and were told
    that they did not have the resources or the time to resolve the difference.


Compilation and Reporting of Intragovernmental
Transactions for Elimination
    Reviewing and Editing Financial Information Received. Review of the SSRs
    for the 35 organizations that submitted information used by DFAS Cleveland to
    compile intragovernmental transactions showed that DFAS Cleveland omitted
    $2.1 billion while entering the SSR information into the CDB because of delays
    in receiving information from the 35 organizations. The $2.1 billion included
    $11.4 million in accounts receivable, $2.05 billion in earned revenue, and
    $5 million in unearned revenue. Consequently, the balance reported from the
    SSRs was less than the balance reported in the CDB. Because the CDB did not
    include information for levels 1, 2, and 3, or Federal and non-Federal, DFAS
    Cleveland decided to allocate the entire $2.1 billion to level 3. However,
    $1.8 billion of the $2.1 billion were level 1 or 2 intragovernmental transactions,
    which should be eliminated from the DoD Agency-Wide or Government-Wide
    financial statements. As a result, level 3 eliminations were overstated by
    $1.8 billion. If DFAS Cleveland had established controls for reviewing and
    editing financial information processed into the accounting system, these errors
    could have been identified and corrected.



                                        9
    Additional Disclosures. DoD Regulation 7000.14-R, volume 6B, states that
    where data used are known to be incomplete, deemed to be unreliable, or are an
    estimated amount, the note pertaining to the line(s) where such data are reported
    in the statement shall contain a reference to such data. DFAS Cleveland did not
    adequately explain in the footnote to the financial statements its procedures for
    allocating intragovernmental transactions for organizations that did not submit
    the required information. Additional disclosures in the footnote to the financial
    statements would make the intragovernmental eliminations for accounts
    receivable, revenue, and unearned revenue more useful and comply with DoD
    Regulation 7000.14-R.


Recommendations and Management Comments
    B.1. We recommend that the Assistant Secretary of the Navy (Financial
    Management and Comptroller) and supporting Defense Finance and
    Accounting Service locations work together to provide the Summary Source
    Revenue data needed by Defense Finance and Accounting Service Cleveland
    to report intragovernmental transactions.

    Management Comments. DFAS concurred and provided details on how they
    planned to obtain SSR data needed by DFAS Cleveland to report
    intragovernmental transactions.

    Audit Response. Comments from DFAS were fully responsive. The Navy did
    not comment on the recommendation. We request that the Navy provide
    comments on the final report.

    B.2. We recommend that the Assistant Secretary of the Navy (Financial
    Management and Comptroller) require Navy Working Capital Fund
    organizations to establish appropriate internal controls to ensure that the
    data provided to the Defense Finance and Accounting Service are accurate,
    complete, and supportable.

    Management Comments Required. The Navy did not comment on the
    recommendation. Therefore, we request that they provide comments on the
    final report.

    B.3. We recommend that the Director, Defense Finance and Accounting
    Service, Cleveland:

           a. Improve management control procedures to ensure that financial
    information submitted from Navy Working Capital Fund field organizations
    is properly recorded, reviewed, and accounted for.

    Management Comments. DFAS concurred and will improve management
    controls to help ensure that financial information submitted by the Navy
    Working Capital Fund field organizations is properly recorded, reviewed, and
    accounted for. However, due to the manual effort involved, there will continue
    to be a risk of errors occurring in compiling and reporting the information.


                                       10
       b. Disclose in an appropriate footnote to the financial statements the
methodology for allocating intragovernmental transactions for organizations
that do not submit the required seller-side information.

Management Comments. DFAS concurred and stated that personnel from the
Working Capital Fund Policy and Procedures section have been assigned to
work with Navy Working Capital Fund field organizations to create a process
by October 31, 2001, to help ensure that required seller-side information is
submitted to DFAS. If this information is not submitted, DFAS will disclose in
a footnote to the financial statements the method used to allocate seller-side
balances for organizations that did not submit the required information.




                                  11
Appendix A. Audit Process

Scope
    We reviewed the process DFAS Cleveland used to identify and report
    intragovernmental transactions for the FY 2000 Navy Working Capital Fund
    Financial Statements, including the balance sheet, Statement of Net Cost, and
    Statement of Changes in Net position. DFAS Cleveland and Kansas City
    recorded 173 JVs, valued at $37.5 billion. We reviewed 151 of the 173 JVs,
    valued at $37 billion, prepared by DFAS Cleveland to reflect the seller-side
    information. We did not review the remaining 22 JVs, valued at $.5 billion,
    made by DFAS Kansas City. Also, we judgmentally selected and reviewed the
    documentation supporting the SSRs for eight Navy Working Capital Fund
    organizations with the intragovernmental transactions of $2.3 billion to
    determine whether the information provided to DFAS Cleveland was accurate
    and reliable.

    DoD-Wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate-level goal, subordinate performance
    goal, and performance measures.

           •    FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
                uncertain future by pursuing a focused modernization effort that
                maintains U.S. qualitative superiority in key warfighting capabilities.
                Transform the force by exploiting the Revolution in Military Affairs,
                and reengineer the Department to achieve a 21st century
                infrastructure. (01-DoD-2)

           •    FY 2001 Subordinate Performance Goal 2.5: Improve DoD
                financial and information management. (01-DoD-2.5)

           •    FY 2001 Performance Measure 2.5.1: Reduce the number of
                noncompliant accounting and finance systems. (01-DoD-2.5.1)

           •    FY 2001 Performance Measure 2.5.2: Achieve unqualified
                opinions on financial statements. (01-DoD-2.5.2.)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

               Financial Management Area. Objective: Strengthen internal
               controls. Goal: Improve compliance with the Federal Managers’
               Financial Integrity Act. (FM-5.3)

                                         12
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.


Methodology
    We reviewed applicable laws, policies, procedures, and regulations related to
    the preparation and presentation of intragovernmental eliminating transactions
    for the FY 2000 Navy Working Capital Fund Financial Statements. We
    reviewed the DFAS Cleveland accounting records and accounting adjustments,
    and we held discussions with DFAS Cleveland and Navy Working Capital Fund
    organizations accounting personnel responsible for collecting, reviewing,
    exchanging, and reporting intragovernmental transactions. We compared and
    analyzed the information that DFAS Cleveland obtained from other trading
    partners with the information reported in the financial statements. Also, we
    reviewed and compared the seller information received by DFAS Cleveland to
    their source documentation for accuracy and completeness.

    Use of Computer-Processed Data. We relied on computer-processed data
    from Standard Accounting and Reporting System-Financial and Departmental
    Reporting, Defense Departmental Reporting System, Standard Accounting and
    Reporting System-Field Level, Standard Accounting and Reporting System-
    Headquarters Command Module, and CDB to conduct the audit. We relied on
    computer-processed data without performing tests of the system’s general and
    application controls because the process for accumulating and reporting
    intragovernmental eliminating transactions at DFAS Cleveland is primarily a
    manual process. Not evaluating the controls did not affect the results of the
    audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from October 2000 through March 2001 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We did our work in accordance with generally
    accepted Government auditing standards except that we were unable to obtain an
    opinion on our system of quality control. The most recent external quality
    control review was withdrawn on March 15, 2001, and we will undergo a new
    review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations in DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a

                                       13
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the management controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the DFAS Cleveland management controls over accumulating and
    reporting intragovernmental transactions that occurred within the Navy General
    Fund, Navy Working Capital Fund, DoD Components, and other Federal
    Government agencies. Specifically, we reviewed the procedures and controls
    that DFAS Cleveland used to collect, adjust, reconcile, allocate, and report
    intragovernmental accounts receivable, revenue, and unearned revenue. We
    reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses as defined by DoD Instruction 5010.40. Because of
    inadequate accounting systems, JVs recorded by DFAS Cleveland to adjust
    buyer-side data to agree with seller-side data could not be supported. This
    management control weakness has already been identified. The Assistant
    Secretary of the Navy (Financial and Comptroller) acknowledged in its
    management representation letter for the FY 2000 Navy Working Capital Fund
    Financial Statements that intragovernmental transactions and balances have not
    been appropriately identified and eliminated for financial reporting purposes
    because of deficiencies in the systems and reporting processes. Also, DFAS
    Cleveland management controls over reviewing, compiling, and allocating
    intragovernmental transactions were not adequate to ensure that
    intragovernmental transactions and eliminations were correctly reported.
    Recommendation B.3.a., if implemented, will improve management controls
    over reliability of the financial reporting. A copy of this report will be provided
    to the senior official responsible for management controls at DFAS Cleveland.

    Adequacy of Management’s Self-Evaluation. DFAS Cleveland’s
    self-evaluation did not detect and report management control weaknesses related
    to its review and compilation of intragovernmental transactions because DFAS
    Cleveland did not assess the reviewing and recording financial information
    received from the Navy Working Capital Fund organizations as a part of its
    internal control program.


Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports.




                                        14
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service Arlington
  Director, Defense Finance and Accounting Service Cleveland
  Director, Defense Finance and Accounting Service Kansas City

Non-Defense Federal Organization
Office of Management and Budget




                                           15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         16
Defense Finance and Accounting Service
Comments




                   17
18
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Marvin L. Peek
Hoa H. Pham
Gopal K. Jain
Modupe M. Akinsika
Andrea L. Hill
Monica L. Noell
Lisa C. Rose-Pressley
